TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                             Statistical Portrayal of the
                          Criminal Investigation Division’s
                             Enforcement Activities for
                          Fiscal Years 2000 Through 2007



                                           July 09, 2008

                              Reference Number: 2008-10-133




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 July 09, 2008


 MEMORANDUM FOR:                     CHIEF, CRIMINAL INVESTIGATION

 FROM:                               Michael R Phillips
                                     Deputy Inspector General for Audit

 SUBJECT:                            Final Audit Report – Statistical Portrayal of the Criminal
                                     Investigation Division’s Enforcement Activities for Fiscal
                                     Years 2000 Through 2007 (Audit # 200810007)

 This report presents the results of our review of statistical information that reflects activities of
 the Criminal Investigation Division (the Division). The overall objective of this review was to
 provide statistical information and trend analyses of the Division’s enforcement activities for
 Fiscal Years (FY) 2000 through 2007. We initiated this review as part of the Treasury Inspector
 General for Tax Administration FY 2008 Annual Audit Plan.

 Impact on the Taxpayer
 During this annual review, we analyzed information from the Criminal Investigation
 Management Information System1 reports to determine the trends and changes in the major areas
 of criminal enforcement. Several key performance measures that had declined in prior years
 improved in FY 2007. Continued progress in enforcement of the tax laws and prosecution of
 criminal tax violations is important to enhancing voluntary compliance by taxpayers and
 fostering confidence in the integrity of the tax system.

 Synopsis
 We previously reported that from FY 2005 to FY 2006, several key performance measures had
 deteriorated, including the numbers of investigations initiated, investigations in open inventory,
 cases recommended for prosecution, subjects convicted of a crime, and subjects sentenced for a


 1
     See Appendix IV for a glossary of terms.
                       Statistical Portrayal of the Criminal Investigation Division’s
                       Enforcement Activities for Fiscal Years 2000 Through 2007



crime.2 In addition, we reported that increasing special agent staffing remains a challenge as the
Division continues to lose experienced special agents to attrition faster than it can replace them.
This year, however, several key performance measures that had declined in recent years
improved. Subject investigations initiated, subject investigations completed, cases recommended
for prosecution, indictments, subjects convicted of a crime, subjects sentenced for a crime, and
publicity rates showed improvement in FY 2007. These improvements were achieved despite
the fact that there were 120 fewer special agents on the rolls.
One area that remains a challenge is pipeline inventory (investigations referred to the
Department of Justice for prosecution), which increased to its highest level in 8 years.

Recommendations
We made no recommendations in this report. However, key Criminal Investigation Division
management officials reviewed the report prior to its issuance and agreed with the facts and
conclusions presented.
Copies of this report are also being sent to the Internal Revenue Service managers affected by the
report information. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.




2
    See Appendix VI, Report 4.
                                                                                                      2
                         Statistical Portrayal of the Criminal Investigation Division’s
                         Enforcement Activities for Fiscal Years 2000 Through 2007




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Most Key Performance Measures Improved in Fiscal Year 2007................Page 3
          While the Criminal Investigation Division Showed Improvements
          in Completed Investigations, Challenges Remain to Address the
          Growing Pipeline Inventory..........................................................................Page 4
          Challenges Remain to Increase the Number of Special Agents ...................Page 6
          Despite Reduced Staff, Trends in Legal Source Income Tax and
          Tax-Related Investigations Improved ..........................................................Page 6
          Questionable Refunds Continue to Be a Concern.........................................Page 8
          Investigations Initiated From External Sources Increased This Year...........Page 9

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 11
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Glossary of Terms................................................................Page 14
          Appendix V – Detailed Charts of Statistical Information.............................Page 17
          Appendix VI – Related Treasury Inspector General for Tax
          Administration Audit Reports.......................................................................Page 35
         Statistical Portrayal of the Criminal Investigation Division’s
         Enforcement Activities for Fiscal Years 2000 Through 2007




                          Abbreviations

BPR         Business Performance Review
CIMIS       Criminal Investigation Management Information System
FY          Fiscal Year
IRS         Internal Revenue Service
PY          Processing Year
U.S.C.      United States Code
                      Statistical Portrayal of the Criminal Investigation Division’s
                      Enforcement Activities for Fiscal Years 2000 Through 2007




                                            Background

In 1999, overall Internal Revenue Service (IRS) tax enforcement activities began to erode. A
survey conducted in 2003 indicated that 17 percent of the surveyed population believed that it
was acceptable to cheat on their taxes, while 81 percent stated that it was not at all acceptable.
Since then, the IRS Commissioner has emphasized the importance and role of tax enforcement in
overall tax compliance by recognizing the need to enhance levels of enforcement activity to
provide a proper balance between service and enforcement. A 2007 taxpayer attitude survey
conducted by the IRS Oversight Board1 showed improvement. In this latest survey, 13 percent
of the surveyed population believed that it was acceptable to cheat on their taxes, while
84 percent stated that it was not at all acceptable. In addition, 82 percent agreed that the more
information and guidance the IRS provides, the more likely people are to correctly file their
returns.
The IRS Strategic Plan for Fiscal Years (FY) 2005 to 2009 states that enforcing tax compliance,
both civilly and criminally, is critical to maintaining American taxpayers’ expectation that the
tax system is fair. It also outlines several objectives to meet the goal of enhanced enforcement,
including discouraging and deterring noncompliance with emphasis on corrosive activity by
corporations, high-income individual taxpayers, and other contributors to the tax gap (the
difference between taxes that are legally owed and taxes that are paid on time).
The IRS Criminal Investigation Division (the Division) has the authority to investigate criminal
tax violations. The vigorous enforcement of criminal statutes within the Division’s jurisdiction
is an integral component of the IRS’ efforts to enhance voluntary compliance and foster
confidence in the fairness and integrity of the tax system.
Over the last few decades, Congress and the Department of the Treasury have expanded the
Division’s jurisdiction to cover offenses under money-laundering and currency-reporting
statutes.2 Accordingly, the Division has been involved with both legal and illegal source income
investigations, including those involving organized crime and narcotics.
In April 1999, Judge William Webster issued a report3 on his review of the Division’s operations
and concluded that the Division had drifted away from its primary mission of investigating
criminal violations of the Internal Revenue Code. Judge Webster recommended that the
Division refocus on its primary mission of investigating criminal violations of the Internal
Revenue laws.

1
  See Appendix IV for a glossary of terms.
2
  18 United States Code Sections 1956 and 1957 (2004) and Title 31 U.S.C., Money and Finance sections.
3
  Review of the Internal Revenue Service’s Criminal Investigation Division (Publication 3388; 4-1999), also known
as the Webster Report.
                                                                                                          Page 1
                   Statistical Portrayal of the Criminal Investigation Division’s
                   Enforcement Activities for Fiscal Years 2000 Through 2007



The Division addressed many of the Webster Report concerns by creating a revised mission
statement, developing a compliance strategy designed to guide the Division in developing and
investigating cases that foster confidence in the tax system, reducing the resources placed on
narcotics-related investigations, publicizing the results of its investigations, and conducting an
empirical study to determine the effect investigations have on voluntary compliance. Division
executives continue to emphasize the importance of developing and investigating cases that have
the greatest effect on tax administration, whether the sources of income in those cases are
derived from legal or illegal activities.
We initiated this review as part of the Treasury Inspector General for Tax Administration
FY 2008 Annual Audit Plan. While the overall trend information presented covers FYs 2000
through 2007, our report concentrates on 1) analyzing program performance for the last 5 years
and 2) providing an in-depth perspective on program activities for the 2 most current fiscal years.
We reviewed several key performance measures, including staffing, investigations, fraud
referrals, prosecution referrals, convictions, sentencing, and fraudulent returns.
Our data analyses were performed in the Treasury Inspector General for Tax Administration
Washington, D.C., office during the period October 2007 through April 2008. We used national
reports from the Division’s management information system during our review. Because of time
and resource constraints, we did not audit the Division’s systems to validate the accuracy and
reliability of its information. Also, we did not assess internal controls because doing so was not
applicable within the context of our audit objective. Otherwise, we conducted this performance
audit in accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II. Detailed charts and tables referred to
in the body of the report are included in Appendix V. Much of the data included in this report
update prior audit reports on criminal enforcement trends. See Appendix VI for a list of those
reports.




                                                                                            Page 2
                     Statistical Portrayal of the Criminal Investigation Division’s
                     Enforcement Activities for Fiscal Years 2000 Through 2007




                                       Results of Review

Most Key Performance Measures Improved in Fiscal Year 2007
Several of the key performance measures that had declined the year before improved in FY 2007.
For example, the number of subject investigations initiated increased 7.8 percent in FY 2007,
compared to a decrease of 8.5 percent in FY 2006.4 In addition, the number of subject
investigations recommended for prosecution increased 4.3 percent in FY 2007, compared to a
decrease of 4.9 percent in FY 2006. Further, the numbers of subjects convicted and sentenced in
FY 2007 increased by 6.7 percent and 5.1 percent, respectively, compared to decreases of
6.1 percent and 3.6 percent in FY 2006.5
The Department of Justice acceptance rate for the Division’s prosecution cases increased to
94.6 percent from 92.2 percent in FY 2006. Similarly, the United States Attorney’s Offices’
acceptance rate for the Division’s prosecution cases increased to 90.2 percent, compared to
88.3 percent in FY 2006. In addition, the national average elapsed days to recommend an
investigation for prosecution or to discontinue an investigation decreased by 5.9 percent and
2.8 percent, respectively, from FY 2006 to FY 2007.6
The Division exceeded most of its performance goals. Total subject investigation initiations
increased from 3,907 in FY 2006 to 4,211 in FY 2007, representing a 7.8 percent increase7 and
102.1 percent of the Division’s goal. The Division completed 4,269 subject investigations,
which exceeded the FY 2007 performance goal of 4,000.
When cases were completed and received media coverage, the overall publicity rate for
prosecutions in FY 2007 was 79.7 percent, which was an all-time high and was 4.1 percent
higher than the rate in FY 2006.




4
  See Appendix V, Figure 4.
5
  See Appendix V, Figures 15 and 23.
6
  See Appendix V, Figure 16.
7
  See Appendix V, Figure 4.
                                                                                           Page 3
                     Statistical Portrayal of the Criminal Investigation Division’s
                     Enforcement Activities for Fiscal Years 2000 Through 2007



While the Criminal Investigation Division Showed Improvements in
Completed Investigations, Challenges Remain to Address the
Growing Pipeline Inventory
As previously stated, the Division exceeded its FY 2007 performance goal of completed subject
investigations as outlined in the IRS FY 2008 Congressional Budget Submission. Of these
completed investigations, 66.5 percent were referred for prosecution, a 1.1 percent increase from
FY 2006.8 The number of subjects convicted of a crime was 2,155, which exceeded the FY 2007
performance plan goal of 2,069 and was an increase of 6.7 percent from FY 2006. The number
of subjects sentenced increased 5.1 percent from FY 2006 (from 2,020 to 2,123).9
In 2003, the IRS Commissioner raised concerns about the length of time needed to recommend
an investigation for prosecution. Since then, the Division has emphasized the reduction of cycle
time. The Division’s Office of Planning and Strategy conducted a study to determine the desired
cycle time range and established a benchmark figure for legal and illegal source investigation
completions (415 days to 425 days, approximately 14 months), because these investigations
closely align with the Division’s mission and measure investigative efficiency.
In FY 2007, the Division reported an average of 412 elapsed days for legal and illegal source
investigation completions, which was 1 percent below the benchmark range and 5.7 percent
below the FY 2006 average of 437 days. The average elapsed days to recommend an
investigation for prosecution or to discontinue a legal or illegal source investigation improved by
8.7 percent and 0.2 percent, respectively, from FY 2006 to FY 2007. The Division’s FY 2008
Annual Business Plan included a business strategy to “Improve Efficiency and Reduce Elapsed
Time on Criminal Subject Investigations.” The Division plans to accomplish this through
appropriate management oversight and direction to maintain optimum workload levels and
ensure that all investigations progress appropriately. Based on the improvements cited
previously, we are encouraged by Division management’s efforts to reduce the elapsed days
needed to complete an investigation and believe that their oversight should continue to bring
about improvements in this area.

Pipeline inventory continues to increase
Pipeline inventory (investigations referred to the Department of Justice for prosecution) has
increased continually for 5 years and now stands at an 8-year high. FY 2007 ended with
4,060 subject investigations in the pipeline, a 3 percent increase over FY 2006 and a 48.6 percent
increase since FY 2002.10 For the first time since we began reporting on its enforcement
activities, the Division had more investigations awaiting prosecution by the Department of


8
   See Appendix V, Figure 15.
9
   See Appendix V, Figure 23.
10
   See Appendix V, Figure 21.
                                                                                            Page 4
                       Statistical Portrayal of the Criminal Investigation Division’s
                       Enforcement Activities for Fiscal Years 2000 Through 2007



Justice than open subject criminal investigations within the Division (3,981) as of
September 30, 2007. According to the Division, a minimum number of hours are required every
quarter to manage the pipeline inventory. As more time and investigative resources are
expended on the pipeline inventory, fewer resources might be available to initiate and complete
investigations.
In its FY 2008 budget request, the Department of Justice requested $5.2 million for its Tax
Division to enhance “Operation Continued Follow-Through,” a tax law enforcement initiative
that supports the President’s focus on reducing tax fraud. If this budget request is approved, we
believe that the additional funding might alleviate some of the delays the Division is
experiencing with the Department of Justice.
Concerned with the continued increases in pipeline inventory, the Office of Planning and
Strategy completed a review of the aging of pipeline inventory. By the end of FY 2005, the
Division’s pipeline inventory was 47.3 percent of total subject investigations11 and had used
19 percent of the Division’s direct investigative time. The study’s conclusion that the United
States Attorney’s Offices’ operational priorities were not optimally aligned with the Division’s
priorities still holds true today, and the situation is deteriorating. In FY 2007, pipeline inventory
(4,060) was 102 percent of open subject criminal investigations (3,981), compared to
62.2 percent in FY 2002.12 In FY 2007, pipeline investigations used 21.8 percent of the
Division’s direct investigative time.
According to data reported in the Business Performance Review (BPR) for FY 2007, the
number of investigations in the Department of Justice Tax Division’s inventory decreased
slightly from FY 2003 to FY 2007, while the number of investigations categorized as
pre-indictment and post-indictment at the United States Attorney’s Offices increased
significantly (from 1,007 pre-indictment investigations in FY 2003 to 1,710 in FY 2007 and from
1,627 post-indictment investigations in FY 2003 to 1,918 in FY 2007). The amount of direct
investigative time applied to the pipeline inventory has increased 7.3 percent in the last 5 fiscal
years, from 14.5 percent to 21.8 percent. The Division indicated that the timely resolution of
these pipeline investigations would remain a challenge. We remain concerned that a continuing
expansion of the pipeline inventory would affect future productivity levels, because fewer new
investigations might be initiated and completed.
In light of these trends, the Chief, Criminal Investigation, requested that we consider evaluating
whether limited resources at the United States Attorney’s Offices will continue to affect pipeline
inventory. We are beginning a review of this area.13



11
   Total subject investigations include investigations currently active and those referred for prosecution and
adjudication (pipeline).
12
   See Appendix V, Figures 10 and 22.
13
   Department of Justice Pipeline Processing (Audit # 200810008).
                                                                                                                 Page 5
                      Statistical Portrayal of the Criminal Investigation Division’s
                      Enforcement Activities for Fiscal Years 2000 Through 2007



Challenges Remain to Increase the Number of Special Agents
Total special agent staffing14 decreased 7.5 percent in the 5 years from FY 2002 to FY 2007,
while the number of field special agents decreased 6.7 percent over the same period. About
one-half of this change occurred in the past year; the total number of field special agents
decreased 3 percent, from 2,511 in FY 2006 to 2,435 in FY 2007.15
Increasing special agent staffing remains a challenge as the Division continues to lose
experienced special agents to attrition faster than it can replace them. According to its most
recent estimates, the Division’s planned hiring of approximately 96 special agents would not
offset the FY 2007 attrition of 150 agents or the FY 2008 attrition of approximately 150 agents.
Last year, we indicated our concern that the decrease in staffing might adversely affect the levels
of and improvements in productivity the Division experienced in FY 2006.16 Although these
adverse effects have not yet been manifested, we believe that the continual net loss of
experienced agents will negatively affect the Division’s productivity in the near future.
Further complicating this issue is the Division’s Electronic Crimes Program’s preference to fill
its open computer investigative specialist positions internally, by converting experienced special
agents who have demonstrated information technology skills. We recently reported our concerns
and recommended that the Director, Electronic Crimes, consider whether a deviation from its
policy of internal recruiting is warranted, especially for the more experienced special agents.17

Despite Reduced Staff, Trends in Legal Source Income Tax and
Tax-Related Investigations Improved
Last year, we reported significantly decreasing trends in several areas, including both legal
source investigation initiations and tax-related investigations. The Division’s Annual Business
Plans have consistently described legal source tax investigations as a top investigative priority,
and we believe that these investigations are an important component of all tax-related
investigations. We previously challenged the Division’s efforts to show progress toward
increasing the level of legal source tax investigations, despite its articulation of a focus on these
types of investigations in its strategic documents.18 In FY 2007, most of these trends were
reversed and showed improvement. Although we cannot determine whether the Division
conducts enough legal source income investigations or to what extent it can or should increase
the number, we noted significant increases in the direct time applied to legal source tax

14
   Includes new recruits, part-time special agents, field and Headquarters Office managers and program analysts, and
Lead Development Center and Fraud Detection Center special agents.
15
   See Appendix V, Figure 1.
16
   See Appendix VI, Report 4.
17
   See Appendix VI, Report 5.
18
   See Appendix VI, Report 2.
                                                                                                            Page 6
                       Statistical Portrayal of the Criminal Investigation Division’s
                       Enforcement Activities for Fiscal Years 2000 Through 2007



investigations, the number of legal source tax investigations initiated, and in both the number of
legal source tax investigations referred for prosecution and the number of subjects convicted of
legal source tax crimes.
In FY 2007, the percentage of direct investigative time spent on legal source income tax
investigations was at an 8-year high, increasing 8.6 percentage points since FY 2000. During
FY 2007, direct time spent on tax-related investigations increased 6.5 percentage points since
FY 2000, also reaching an 8-year high. The Division spent 50.4 percent of its time investigating
legal source income tax investigations and 64.9 percent of its time investigating tax-related
cases.19 The percentage of all initiations that were legal source income tax investigations
increased by 9.2 percent, and initiations that were tax-related increased by 2.9 percent.
However, total open subject investigation inventory decreased slightly (1.3 percent) from
FY 2006 and has decreased substantially (9.4 percent) in the 5 years since FY 2002. Decreases
also occurred in both legal source open inventory and tax-related open inventory since FY 2006
(1 percent and 6.3 percent, respectively). Here, the 5-year change was substantial--tax-related
investigations in open subject criminal investigation inventory decreased from 3,337 in
FY 2002 to 2,936 in FY 2007 (12 percent),20 and legal source decreased from 2,102 to
1,990 (5.3 percent).21
Case completions showed increases. The number of legal source income tax investigations
referred for prosecution increased 17 percent from FY 2006 and 60 percent from FY 2002.
Tax-related investigations referred for prosecution also increased for the 1-year and 5-year
periods, improving by 5.8 percent and 39 percent, respectively.22
In addition, the number of subjects convicted of legal source income tax crimes increased
23.6 percent from FY 2006 and 40.2 percent from FY 2002. The number of subjects sentenced
for legal source tax crimes increased during these periods by 8.5 percent and 14.4 percent,
respectively.23 The number of subjects sentenced for a tax-related crime increased 11.6 percent
during FY 2007, and the percentage of all sentences for tax-related crimes was at an 8-year high
of 52.4 percent.24

Tax compliance correlates highly with increased publicity
Research suggests that higher levels of criminal sentences lead to higher tax compliance. The
average number of months a subject is incarcerated has increased since FY 2000. The


19
   Totals do not add up to 100 percent because tax-related cases include all legal and some illegal source
investigations.
20
   See Appendix V, Figure 12.
21
   See Appendix V, Figure 13.
22
   See Appendix V, Figures 17 and 18.
23
   See Appendix V, Figures 24 and 27.
24
   See Appendix V, Figure 26.
                                                                                                             Page 7
                     Statistical Portrayal of the Criminal Investigation Division’s
                     Enforcement Activities for Fiscal Years 2000 Through 2007



percentage increase in the number of months a subject is incarcerated for legal source income tax
investigations rose 20 percent (from an average of 15 months to 18 months) between FYs 2000
and 2007. During the same period, incarceration time increased 29.6 percent (from an average of
27 months to 35 months) for illegal source investigations and 5.3 percent (from an average of
76 months to 80 months) for narcotics-related investigations, even though both categories
showed a decrease in months served from FY 2006 to FY 2007.25
In an effort to enhance voluntary compliance, the Division changed its philosophy to allow more
publicity of its tax investigations. The Division continues to increase the publicity on tax
prosecutions.26 The overall publicity rate for prosecutions in FY 2007 was 79.7 percent, which
was an all-time high and was 4.1 percent higher than the rate in FY 2006. This increased
exposure indicates that the Division frequently receives media attention and, in our belief, sends
a message to taxpayers that violations of the Internal Revenue Code and related financial crimes
are investigated and prosecuted.

Trends related to the number of investigations per special agent are improving
The Division uses the average inventory of subject investigations per special agent and the
average total inventory per special agent as business results measures. The average inventory
calculation includes only open subject investigations, whereas the total inventory calculation
includes primary investigations of allegations, open subject investigations, and pipeline subject
investigations.
In FY 2006, the average inventory of subject investigations per special agent was 1.76,
increasing to 1.81 in FY 2007. However, the average total inventory per special agent, which we
believe is a better indicator of a special agent’s workload, decreased slightly from 4.76 in
FY 2006 to 4.72 in FY 2007.27 The decrease in average total inventory per special agent reflects
that although fewer cases were brought into open inventory, an increased number of that
inventory was successfully processed and accepted for prosecution in FY 2007.

Questionable Refunds Continue to Be a Concern
Refund fraud continues to grow. The IRS Questionable Refund Program for Processing
Year (PY) 2007 showed a considerable increase in the number of potentially fraudulent refund
returns filed. In PY 2007, refund returns verified as containing false wage information increased
152.3 percent compared to PY 2005 (211,416 returns compared to 83,785). Of the
211,416 returns, 131,999 were forwarded for further disposition. The average fraudulent claim
in PY 2007 was $6,479, compared to $3,764 in PY 2006. We believe that the limited availability
of Examination Division resources for handling the increased volume of fraudulent refund

25
   See Appendix V, Figure 29.
26
   See Appendix V, Figure 30.
27
   See Appendix V, Figure 10.
                                                                                            Page 8
                        Statistical Portrayal of the Criminal Investigation Division’s
                        Enforcement Activities for Fiscal Years 2000 Through 2007



returns significantly influenced the number of fraudulent returns that the Division was able to
stop.
During the past several years, Congressional concerns with the Questionable Refund Program
have increased, particularly with the number of fraudulent prisoner refunds issued. More
recently addressed was the span of operations of the Electronic Fraud Detection System and the
process within the Questionable Refund Program of freezing taxpayer accounts. We issued a
final report28 in FY 2007 indicating that while we were encouraged by the IRS’ actions to address
stakeholder concerns and restore balance between taxpayer rights and effective administration of
the tax laws, we were concerned that some of the changes were not stopping millions of dollars
of potentially fraudulent refunds from being issued.

Investigations Initiated From External Sources Increased This Year
The Division initiates investigations from many different sources, both inside and outside the
IRS. The primary sources inside include fraud referrals from the compliance divisions and
investigations developed by the Division from the Questionable Refund Program and the Return
Preparer Program. Sources of investigations outside the IRS include the United States
Attorney’s Offices and other Government agencies, both Federal and State. In addition, the
Division initiates investigations based on information received from public sources, including the
media and informants.
During FY 2007, 54.9 percent of the 4,211 subject investigations initiated came from the United
States Attorney’s Offices or other Government agencies, compared to 53.4 percent in FY 2006.
In contrast, during FY 2007, 32.5 percent of subject investigations initiated originated from
within the IRS, which was a decline from 35.2 percent in FY 2006 and from 34.2 percent in
FY 2002. Further, in FY 2007, the number of subject investigations initiated from a public
source increased to 12.7 percent of total investigations initiated, which is up from 11.5 percent in
FY 2006.29
The Division’s FY 2008 Annual Business Plan states that the Division will maintain its
investigative resources applied to significant legal source tax investigations by continuing to
work closely with the other operating divisions to develop and investigate cases on significant
tax violators. Doing so will help the IRS’ overall efforts to reduce the tax gap. We continue to
believe that because investigations generated from internal sources are likely to be legal source
income investigations, the Division should remain vigilant when evaluating whether the level of
cases initiated from sources external to the IRS maintains a proper balance with stated priorities.




28
     See Appendix VI, Report 3.
29
     See Appendix V, Figure 8.
                                                                                             Page 9
                        Statistical Portrayal of the Criminal Investigation Division’s
                        Enforcement Activities for Fiscal Years 2000 Through 2007



Despite a small drop in acceptance rates, trends in the Fraud Referral Program
continue to improve
In response to our prior report on the legal source income tax program,30 the Division committed
to taking several steps to enhance its Fraud Referral Program, such as establishing fraud referral
coordinator positions in each field office, fostering relationships with other IRS operating
divisions, and incorporating language into the managers’ performance commitments. As a result
of these changes, the Division is increasing the awareness of the Fraud Referral Program. The
number of fraud referrals received in FY 2007 increased 1.5 percent from FY 2006 and
16.3 percent from FY 2002. Although the acceptance rate by the Division decreased by
2.9 percent in FY 2007, it has improved by 5.7 percent since FY 2002.31 Prosecution
recommendations to the Department of Justice based on fraud referrals also increased 2.1 percent
in FY 2007 compared to FY 2006. In addition, the number of subjects sentenced for a crime
increased 18.3 percent for the same period.
Because fraud referrals remain a viable and important source of legal source income tax
investigations, we are encouraged by the recent results of the Fraud Referral Program.
Notwithstanding small declines in FYs 2004 and 2006, the annual number of referrals received
has increased, trending to a near all-time high in FY 2007. We believe that the Division and
other operating divisions should continue to emphasize the importance of these types of
investigations as they relate to tax administration and the IRS’ efforts to improve voluntary
compliance.




30
     See Appendix VI, Report 1.
31
     See Appendix V, Figure 9.




                                                                                          Page 10
                        Statistical Portrayal of the Criminal Investigation Division’s
                        Enforcement Activities for Fiscal Years 2000 Through 2007



                                                                                    Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to provide statistical information and trend analyses of
the Criminal Investigation Division’s (the Division) enforcement activities for FYs 2000
through 2007.
To accomplish our objective, we reviewed the IRS data publications and data from the Criminal
Investigation Management Information System (CIMIS) 1 to analyze and identify trends. We
relied on information accumulated by the IRS and the Division in established reports and the
CIMIS and did not verify the accuracy of the information. The major issues we focused on
included:
           •   Special Agent Staffing.
           •   Investigation Initiations.
           •   Open Investigations.
           •   Pipeline Investigations.
           •   Investigation Closures.
           •   Investigations Referred for Prosecution.
           •   Subsequent Legal Actions.
           •   Compliance Strategy Programs.




1
    See Appendix IV for a glossary of terms.
                                                                                           Page 11
                 Statistical Portrayal of the Criminal Investigation Division’s
                 Enforcement Activities for Fiscal Years 2000 Through 2007



                                                                             Appendix II

                 Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
Carl Aley, Director
Jeffrey M. Jones, Director
Diana M. Tengesdal, Acting Director
Joseph F. Cooney, Audit Manager
Robert W. Beel, Lead Auditor
Lauren W. Bourg, Auditor
Chinita M. Coates, Auditor




                                                                                    Page 12
                  Statistical Portrayal of the Criminal Investigation Division’s
                  Enforcement Activities for Fiscal Years 2000 Through 2007



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Director, Operations Policy and Support, Criminal Investigation SE:CI:OPS
Director, Strategy, Criminal Investigation SE:CI:S
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Planning and Strategy, Criminal Investigation SE:CI:S:PS




                                                                                    Page 13
                   Statistical Portrayal of the Criminal Investigation Division’s
                   Enforcement Activities for Fiscal Years 2000 Through 2007



                                                                                   Appendix IV

                                Glossary of Terms

Business Performance Review – A quarterly review by the Criminal Investigation Division (the
Division) to report on its performance measures, business results, employee and customer
satisfaction, and other items of importance.
Compliance Strategy Program – The Division’s organizational strategy comprised of three
interdependent program areas: Legal Source Tax Crimes, Illegal Source Financial Crimes, and
Narcotics-Related Financial Crimes.
Computer Investigative Specialist (CIS) – An experienced special agent with excellent
financial investigative skills and knowledge of accounting and legal principles. A CIS agent
completes a standardized course study in computer evidence recovery and analysis. The mission
of the CIS agent position is to serve as an investigator who contributes computer expertise to
criminal investigations. A CIS agent is a member of his or her respective field office and should
be used exclusively for CIS agent assignments.
Criminal Investigation Management Information System – A database that tracks the status
and progress of criminal investigations and the time expended by special agents.
Cycle Time – Elapsed calendar days on completed investigations.
Direct Investigative Time – Time spent by special agents conducting investigations and other
law enforcement activities.
Discontinued Investigation – A subject investigation that resulted in a determination that there
was no prosecution potential.
Electronic Crimes Program – A program established as a formal organizational component of
the Division in 2001 providing guidance and resources in securing, documenting, processing,
maintaining, and presenting digital evidence in support of IRS criminal investigations.
Elapsed Days – The number of days between the initiation of a subject investigation and another
date, such as the date discontinued or date referred for prosecution.
Electronic Fraud Detection System – The primary computer system used by the Division that
greatly enhances its ability to identify and stop fraudulent filings.
Field Special Agent – A special agent in one of the Division’s 29 field offices.
Fraud Detection Center – The Division organization responsible for identifying and detecting
refund fraud, preventing the issuance of false refunds, and providing support for the Division
field offices.
                                                                                         Page 14
                   Statistical Portrayal of the Criminal Investigation Division’s
                   Enforcement Activities for Fiscal Years 2000 Through 2007



Fraud Referral Program – A program designed to partner between the Division and IRS
operating divisions to promote fraud awareness and assist with fraud training.
Grand Jury Investigation – Investigation conducted through the use of a Federal grand jury to
determine whether a subject should be charged with a crime. Use of the Federal grand jury to
investigate the potential crime(s) may be initiated by the Division or by an attorney for the
Federal Government.
Illegal Source Financial Crimes – Crimes involving illegally earned income. They include
crimes involving money laundering, 18 United States Code (U.S.C.) Sections (§§) 1956 and
1957; sections of U.S.C. Title 31, Money and Finance; and U.S.C. Title 26 violations
investigated in conjunction with other agencies.
Inventory per Special Agent – The number of open subject investigations divided by the
number of field special agents whose salary grade level is 13 or below and who have various
position descriptions, including those of coordinator and reviewer.
IRS Data Book – A publication that provides information on activities conducted by the IRS
such as taxes collected, enforcement, taxpayer assistance, budget, workforce, and other selected
activities.
IRS Oversight Board – A nine-member independent body charged to oversee the IRS in its
administration, management, conduct, direction, and supervision of the execution and application
of the Internal Revenue laws and to provide experience, independence, and stability to the IRS so
it might move forward in a cogent, focused direction.
Legal Source Tax Crimes – Crimes involving legal industries and occupations and legally
earned income.
Narcotics-Related Financial Crimes – Crimes involving tax and money laundering related to
narcotics and drug trafficking.
Pipeline Inventory – A subject investigation that has been recommended for prosecution and
the subject has not been convicted or acquitted, or the investigation has not been dismissed. It
excludes investigations in which the subject became a fugitive after indictment.
Primary Investigation – An evaluation of an allegation that an individual or entity is in
noncompliance with the Internal Revenue laws and related financial crimes.
Processing Year – Refers to the year in which taxpayers file their tax returns at the Submission
Processing sites. Generally, returns for Tax Year 2005 were processed during Calendar
Year 2006, although returns for older years were also processed in Calendar Year 2006.
Questionable Refund Program – A nationwide, multi-divisional program designed to identify
fraudulent returns, stop the payment of fraudulent refunds, and refer identified fraudulent refund
schemes to the Division’s field offices.

                                                                                            Page 15
                   Statistical Portrayal of the Criminal Investigation Division’s
                   Enforcement Activities for Fiscal Years 2000 Through 2007



Referred for Prosecution – A subject investigation that resulted in the determination of
prosecution potential referred to the Department of Justice or to a United States Attorney’s
Office.
Return Preparer Program – A program that pursues unscrupulous return preparers who
knowingly claim excessive deductions and exemptions on returns prepared for clients. The
clients might or might not have knowledge of the false claims.
Special Agent – A Division law enforcement employee who investigates potential criminal
violations of the Internal Revenue laws and related financial crimes.
Subject Investigation – An investigation of an individual or entity alleged to be in
noncompliance with the laws enforced by the IRS and having prosecution potential.
Subject Seizure Investigation – An investigation to locate and seize assets that are subject to
seizure or forfeiture under various U.S.C. titles and sections such as 26 U.S.C. § 7302 or
18 U.S.C. §§ 981, 982, or 984.
Tax-Related Violation – A violation involving Title 26, Title 33 sections, or one of the
following Title 18 sections: § 286, § 287, § 371, or § 514 associated with a Title 26 violation, or
§ 371 associated with a Title 26 and a Title 31 violation.
Title 18 – U.S.C. Title 18, Crimes and Criminal Procedure. Various sections of Title 18 apply to
violations that are within the jurisdiction of the Division. Examples include § 286, Conspiracy to
Defraud the Government with Respect to Claims; § 287, False, Fictitious, or Fraudulent Claims;
§ 371, Conspiracy to Commit Offense or to Defraud United States; and §§ 1956 and 1957,
Laundering of Monetary Instruments and Engaging in Monetary Transactions in Property
Derived from Specified Unlawful Activity. The most common section investigated under this
statute is money laundering.
Title 26 – U.S.C. Title 26, Internal Revenue Code.
Title 31 – U.S.C. Title 31, Money and Finance. Several sections of Title 31 apply to violations
that are within the jurisdiction of the Division. Examples include § 5322, Criminal Penalties (for
willful violations of Title 31 sections), and § 5324, Structuring Transactions to Evade Reporting
Requirement Prohibited.
Title 33 – U.S.C. Title 33, Taxation and Finance–Virgin Islands. Several sections of Title 33
apply to violations that are within the jurisdiction of the Division. Examples include § 1521,
Attempt to Evade or Defeat Tax; § 1522, Conspiracy to Evade or Defeat Tax; and § 1523,
Willful Failure to Collect or Pay Over Tax.




                                                                                           Page 16
                             Statistical Portrayal of the Criminal Investigation Division’s
                             Enforcement Activities for Fiscal Years 2000 Through 2007



                                                                                                                            Appendix V


                 Detailed Charts of Statistical Information

    Figure 1 – Special Agent1 and Field Special Agent Staffing at the End of Each Fiscal Year.......... Page 19
    Figure 2 – Special Agent Direct Investigative Time Expended Each Fiscal Year ........................... Page 19
    Figure 3 – Percentage of Direct Investigative Time Spent on Legal Source and
               Tax-Related Investigations Each Fiscal Year ................................................................Page 20
    Figure 4 – Number of Subject Investigations Initiated and the Number Initiated per
               Field Agent Each Fiscal Year ......................................................................................... Page 20
    Figure 5 – Number of Subject Investigations Initiated Each Fiscal Year for Tax-Related
               or Nontax-Related Violations and the Percentage That Is Tax-Related ........................ Page 21
    Figure 6 – Number of Subject Investigations Initiated Each Fiscal Year by Compliance
               Strategy Program and the Percentage That Is Legal Source Tax Crimes ..................... Page 21
    Figure 7 – Number of Subject Investigations Initiated Each Fiscal Year by
               Principle United States Code Title.................................................................................. Page 22
    Figure 8 – Number of Subject Investigations Initiated Each Fiscal Year by
               Source of the Allegation or Information ..........................................................................Page 22
    Figure 9 – Number of Fraud Referrals Received Each Fiscal Year and the Percentage
               Accepted......................................................................................................................... Page 23
    Figure 10 – Number of Open Subject Investigations and the Total of All Investigations at the
                End of Each Fiscal Year and the Average Number of Each per Special Agent ............ Page 23
    Figure 11 – Number of All Types of Investigations Open at the End of Each Fiscal Year ................ Page 24
    Figure 12 – Number of Open Subject Investigations Each Fiscal Year for Tax-Related or
                Nontax-Related Violations and the Percentage That Is Tax-Related ............................ Page 24
    Figure 13 – Number of Open Subject Investigations Each Fiscal Year by Compliance
                Strategy Program and the Percentage That Is Legal Source Tax Crimes..................... Page 25
    Figure 14 – Number of Open Subject Investigations at the End of Each Fiscal Year
                by Type of Investigation (Grand Jury or Nongrand Jury) ............................................... Page 25
    Figure 15 – Number of Subject Investigations Discontinued or Referred for
                Prosecution Each Fiscal Year and the Percentage Referred for Prosecution ............... Page 26
    Figure 16 – Average Elapsed Days of Subject Investigations Discontinued and
                Referred for Prosecution Each Fiscal Year....................................................................Page 26



1
    See Appendix IV for a glossary of terms.
                                                                                                                                         Page 17
                         Statistical Portrayal of the Criminal Investigation Division’s
                         Enforcement Activities for Fiscal Years 2000 Through 2007



Figure 17 – Number of Subject Investigations Referred for Prosecution Each Fiscal Year for
            Tax-Related or Nontax-Related Violations and the Percentage
            That Is Tax-Related........................................................................................................ Page 27
Figure 18 – Number of Subject Investigations Referred for Prosecution Each Fiscal Year by
            Compliance Strategy Program and the Percentage That Is
            Legal Source Tax Crimes...............................................................................................Page 27
Figure 19 – Number of Subject Investigations Referred for Prosecution Each Fiscal Year
            by Principle United States Code Title............................................................................. Page 28
Figure 20 – Number of Subject Investigations Referred for Prosecution Each Fiscal Year
            by Type of Investigation (Grand Jury or Nongrand Jury Investigation) .......................... Page 28
Figure 21 – Number of Tax-Related and Nontax-Related Subject Investigations
            in the Pipeline Each Fiscal Year and the Percentage That Is Tax-Related ................... Page 29
Figure 22 – Number of Subject Investigations in the Pipeline Each Fiscal Year by Compliance
            Strategy Program and the Percentage That Is Legal Source Tax Crimes ..................... Page 29
Figure 23 – Number of Subjects Convicted and Sentenced for a Crime Each Fiscal Year .............. Page 30
Figure 24 – Number of Subjects Convicted of a Crime Each Fiscal Year by Compliance
            Strategy Program and the Percentage That Is Legal Source Tax Crimes ..................... Page 30
Figure 25 – Number of Subject Investigations Initiated, Referred for Prosecution,
            Indicted, and Convicted Each Fiscal Year...................................................................... Page 31
Figure 26 – Number of Subjects Sentenced for a Crime Each Fiscal Year for Tax-Related
            or Nontax-Related Violations and the Percentage That Is Tax-Related ........................ Page 31
Figure 27 – Number of Subjects Sentenced for a Crime Each Fiscal Year by Compliance
            Strategy Program, and the Percentage That Is Legal Source Tax Crimes .................... Page 32
Figure 28 – Number of Subjects Sentenced for a Crime Each Fiscal Year by
            Principle United States Code Title.................................................................................. Page 32
Figure 29 – Average Number of Months a Subject Is Incarcerated Each
            Fiscal Year by Compliance Strategy Program ...............................................................Page 33
Figure 30 – Percentage of Investigations That Received Publicity Each
            Fiscal Year by Compliance Strategy Program ...............................................................Page 33
Figure 31 – Number of Paper and Electronic Returns Determined to Be Fraudulent
            or Potentially Fraudulent by the Division’s Questionable Refund Program.................... Page 34
Figure 32 – Dollar Amounts of Fraudulent Refunds Identified and Stopped by
            the Division’s Questionable Refund Program.................................................................Page 34




                                                                                                                                Page 18
                       Statistical Portrayal of the Criminal Investigation Division’s
                       Enforcement Activities for Fiscal Years 2000 Through 2007



Figure 1: Special Agent and Field Special Agent Staffing at the End of Each Fiscal Year.

             3,000


             2,800                            2,902
                                 2,822                  2,800        2,796          2,823      2,804
                      2,734
             2,600                                                                                      2,684
                                              2,610
                      2,513                             2,543
             2,400                                                   2,490                     2,511
                                 2,477
                                                                                    2,416               2,435

             2,200
                      FY 00      FY 01       FY 02      FY 03        FY 04          FY 05      FY 06    FY 07

                                            Special Agents                    Field Special Agents


           Source: The Criminal Investigation Division’s (the Division) analysis of staffing information.

Figure 2: Special Agent Direct Investigative Time Expended Each Fiscal Year.2

             65.0%

             64.0%

             63.0%

             62.0%                                                                                       65.0%
                                                             63.7%
                                                63.3%




                                                                                     63.3%



                                                                                                63.2%
                                                                      62.5%




             61.0%
                         60.9%




                                    60.2%




             60.0%

             59.0%
                        FY 00     FY 01       FY 02      FY 03       FY 04          FY 05      FY 06    FY 07


           Source: The Division’s analysis of direct investigative time information for FYs 2000 through
           2002 and CIMIS Report INV001(Criminal Investigation Summary Statistics) for FYs 2003
           through 2007.




2
  In FY 2006, the Division revised its calculation formula for direct investigative time on tax and tax-related
investigations. Therefore, the numbers reflected in Figure 2 might not agree with those in prior reports.
                                                                                                                 Page 19
                       Statistical Portrayal of the Criminal Investigation Division’s
                       Enforcement Activities for Fiscal Years 2000 Through 2007



Figure 3: Percentage of Direct Investigative Time Spent on Legal Source and Tax-Related
Investigations Each Fiscal Year.3,4
             70.0%

             60.0%
             50.0%

             40.0%




                                                                                                                                                                      67.1%
                                                                                           64.8%




                                                                                                                                             65.0%




                                                                                                                                                                                               64.9%
                                                                                                                    64.4%
                                                                      60.4%
                               58.4%




                                                    59.0%




                                                                                                                                                                                       50.4%
                                                                                                                                                              48.2%
             30.0%




                                                                                                                                     44.8%
                                                                                                            43.2%
                       41.8%




                                                                                   42.4%
                                                              39.9%
                                            39.1%




             20.0%
             10.0%

              0.0%
                        FY 00                 FY 01             FY 02                  FY 03                 FY 04                    FY 05                    FY 06                    FY 07

                                                                      Legal Source                                    Tax-Related


           Source: The Division’s BPR reports for FYs 2000 through 2006 and CIMIS Report INV001
           (Criminal Investigation Summary Statistics) for FY 2007.

Figure 4: Number of Subject Investigations Initiated and the Number Initiated per Field
Agent Each Fiscal Year.
             4,500                                                                                                                                                                              3.00
                                                                                                                             4,269




                                                                                                                                                                               4,211
             4,000
                                                                               4,001
                                                             3,906




                                                                                                    3,917




                                                                                                                                                      3,907




             3,500                                                                                                                                                                              2.50
                       3,372




                                            3,284




             3,000
                                                                                                                                                                                                2.00
             2,500
             2,000                                                                                                             93                                                91
                                                                                                                             1.                                                1.               1.50
             1,500                                             65                74                   74                                                70
                                                             1.                1.                   1.                                                1.
                         51                   48
             1,000     1.                   1.                                                                                                                                                  1.00
               500
                 0                                                                                                                                                                              0.50
                      FY 00               FY 01             FY 02             FY 03                FY 04                    FY 05                    FY 06                    FY 07

                                       Total Subject Initiations                                   Total Subject Initiations per Field Agent


           Source: The IRS Data Books (Publication 55B) for FYs 2000 through 2005, CIMIS Report INV002
           (Summary by Program Area) for FYs 2006 and 2007, and our analysis based on the number of field
           special agents provided by the Division.




3
  In FY 2006, the Division revised its calculation formula for direct investigative time on tax and tax-related
investigations. Therefore, the numbers reflected in Figure 3 might not agree with those in prior reports.
4
  Totals do not add up to 100 percent because tax-related cases include all legal and some illegal source
investigations.
                                                                                                                                                                                                       Page 20
                          Statistical Portrayal of the Criminal Investigation Division’s
                          Enforcement Activities for Fiscal Years 2000 Through 2007



Figure 5: Number of Subject Investigations Initiated Each Fiscal Year for Tax-Related or
Nontax-Related Violations and the Percentage That Is Tax-Related.
        2,800                                                                                                                                                            100%




                                                                                                                    2,631
        2,400




                                                                                                                                                       2,516
                                                           2,468




                                                                                2,452




                                                                                                                                      2,445
                                                                                                                                                                         90%




                                                                                                 2,164
        2,000
                                     1,854



                                                                                                                                                                         80%
                  1,786




                                                                                                         1,753
        1,600




                                                                                                                                                               1,695
                                                                                                                            1,638
                          1,586




                                                                                        1,549




                                                                                                                                              1,462
                                                                   1,438
                                                  1,430




        1,200                                                                                                                                                            70%
          800
                                      56.5%                                                       55.2%
                  53.0%                                                                                                                                                  60%
          400                                              63.2%                                                    61.6%             62.6%
                                                                                 61.3%                                                                  59.7%
            0                                                                                                                                                            50%
                  FY 00               FY 01                 FY 02                FY 03            FY 04              FY 05             FY 06            FY 07

                                          Tax-Related                                   Nontax-Related                               % Tax-Related


      Source: The Division’s BPR reports for FYs 2000 through 2005 and CIMIS Report INV002
      (Summary by Program Area) for FYs 2006 and 2007.

Figure 6: Number of Subject Investigations Initiated Each Fiscal Year by Compliance
Strategy Program and the Percentage That Is Legal Source Tax Crimes.
        1,800                                                                                                                                                            100%


                                                                                                                                                        1,731
                                                                                                                    1,693




                                                                                                                                        1,686


        1,600                                                                                                                                          1,664             90%
                                                                                                                   1,632
                                                           1,554




                                                                                                   1,537
                                                                                1,535




                                                                                                                                     1,524
                                                                               1,506
                                                          1,485




        1,400                                                                                                                                                            80%
                                                                                                1,370
                                          1,313




        1,200
                     1,254




                                                                                                                                                                         70%
                  1,109




        1,000
                                  1,020




                                                                                                           1,010
                1,009




                                                                                                                                                                         60%
                                                                                          960
                                                   951




                                                                                                                               944




         800
                                                                     867




                                                                                                                                                                   816




                                                                                                                                                                         50%
                                                                                                                                                 697




         600
         400                                                                                                                                                             40%
                                                           39.8%                 37.6%                               39.7%             39.0%             39.5%           30%
         200     37.2%                                                                            35.0%
                                     31.1%
           0                                                                                                                                                             20%
                  FY 00               FY 01                 FY 02                FY 03            FY 04              FY 05              FY 06            FY 07

                                   Legal Source                            Illegal Source            Narcotics-Related                    % Legal Source


      Source: The IRS Data Books (Publication 55B) for FYs 2000 through 2005 and CIMIS
      Report INV002 (Summary by Program Area) for FYs 2006 and 2007.




                                                                                                                                                                                Page 21
                   Statistical Portrayal of the Criminal Investigation Division’s
                   Enforcement Activities for Fiscal Years 2000 Through 2007



Figure 7: Number of Subject Investigations Initiated Each Fiscal Year by Principle United
States Code Title.
          3,000

          2,500                                             2,199         2,141                    2,137
                   1,922                           2,004                            1,996
                                         1,911
          2,000              1,700
                                                                          1,975                    1,933
                                         1,847     1,875
          1,500                                                                     1,781
                                                            1,602
                             1,482
          1,000    1,360


            500                           148       122      116          153        130           139
                    90        102

              0
                   FY 00     FY 01       FY 02    FY 03     FY 04         FY 05     FY 06          FY 07

                                     Title 18              Title 26                  Title 31


         Source: CIMIS Report 11 (Program Summary Analysis) and the Division’s analysis of the CIMIS.

Figure 8: Number of Subject Investigations Initiated Each Fiscal Year by Source of the
Allegation or Information. IRS sources include fraud referrals from the compliance divisions,
investigations developed by the Fraud Detection Centers and Lead Development Centers, and
currency transactions.
          2,500

          2,000                                             2,286         2,267                    2,310
                   2,144                          2,191
                             2,064      2,016                                       2,085
          1,500
                                                                          1,547
                   812       809        1,334                                       1,374          1,367
          1,000                                   1,266     1,179

            500
                                         556       544                    455                      534
                   416       411                             452                     448
             0
                  FY 00     FY 01       FY 02     FY 03     FY 04         FY 05     FY06           FY07

                             USAO & other Govt agencies             IRS           Public & other


         Source: Our analysis of the CIMIS and CIMIS Report 11 (Program Summary Analysis) for
         FYs 2000 through 2005 and the Division’s analysis of the CIMIS for FYs 2006 and 2007.
         USAO = United States Attorney’s Offices.




                                                                                                           Page 22
                           Statistical Portrayal of the Criminal Investigation Division’s
                           Enforcement Activities for Fiscal Years 2000 Through 2007



Figure 9: Number of Fraud Referrals Received Each Fiscal Year and the Percentage Accepted.
            700
                                                                                                                                                                   120%




                                                                                                                  625
            600




                                                                                                                                                    612
                                                                                                                                   603
                                                                                                                                                                   100%




                                                                             559




                                                                                               530
                                                            526
            500                            486
                                                                                                                                                                   80%
                        436




            400
                                                                                                               68.8%             71.5%            68.6%            60%
            300                                            62.9%            61.2%            58.0%
                       50.8%             53.8%                                                                                                                     40%
            200

            100                                                                                                                                                    20%

               0                                                                                                                                                   0%
                       FY 00             FY 01             FY 02            FY 03            FY 04              FY 05            FY 06            FY 07

                                                  Number Received                                         Percentage Accepted

          Source: The Division’s BPR reports for FYs 2000 through 2005 and CIMIS Report INV001
          (Criminal Investigation Summary Statistics) for FYs 2006 and 2007.

Figure 10: Number of Open Subject Investigations and the Total of All Investigations at
the End of Each Fiscal Year and the Average Number of Each per Special Agent.5
           12,000         5.41                                                                                                                                     6.00
                                                                                                                   5.19
                                                                               4.82             4.94
           10,000                            4.75                                                                                   4.76             4.72
                                                              4.46                                                                                                 5.00
            8,000
                                                                                                                                                                   4.00
                               12,063




                                                                                                                        11,467
                                                                                    11,101



                                                                                                     11,118




                                                                                                                                         10,902
                                                  10,572



                                                                   10,534




                                                                                                                                                          10,374
            6,000
                                                                                                                                                                   3.00
                                                                            4,615




            4,000
                                                           4,395




                                                                                                                4,283
                                                                                             4,136




                                                                                                                                 4,034



                                                                                                                                                  3,981
                       3,749



                                          3,702




                                                                                                                                                                   2.00
            2,000
                                                              1.86             2.00             1.84               1.94
                          1.68               1.66                                                                                   1.76             1.81
                   0                                                                                                                                               1.00
                        FY 00              FY 01            FY 02            FY 03            FY 04              FY 05            FY 06            FY 07

                                        Subject Inventory                                                     Total Inventory
                                        Avg Subject Inventory per Agent                                       Avg Total Inventory per Agent


          Source: The Division’s analysis of the CIMIS.


5
  During FY 2006, the Division revised its formula for determining total inventory. The new formula does not
include subject seizure investigations or open primary investigations if they had a corresponding subject
investigation. As a result, the inventory numbers reported in Figure 10 for prior fiscal years changed and might not
agree with those in our prior reports. Total inventory includes primary investigations not yet elevated to subject
investigations, open subject investigations currently being worked in field offices, and subject investigations referred
for prosecution (pipeline).

                                                                                                                                                                          Page 23
                                Statistical Portrayal of the Criminal Investigation Division’s
                                Enforcement Activities for Fiscal Years 2000 Through 2007



Figure 11: Number of All Types of Investigations Open at the End of Each Fiscal Year.6
             14,000
             12,000
             10,000             3,484
                                                 2,992           2,733             3,072            3,633           3,846
                                                                                                                                        3,943
              8,000                                                                                                                                        4,060
                                3,749
              6,000                              3,702           4,395             4,615                            4,283
                                                                                                    4,136                               4,034
              4,000                                                                                                                                        3,981

              2,000             4,830            3,878           3,406             3,414            3,349           3,338               2,925              2,333
                    0
                                FY 00            FY 01           FY 02             FY 03            FY 04           FY 05               FY 06              FY 07

                                         Primary Investigations                       Subject Inventory                  Pipeline Inventory


           Source: The Division’s analysis of the CIMIS.

Figure 12: Number of Open Subject Investigations Each Fiscal Year for Tax-Related or
Nontax-Related Violations and the Percentage That Is Tax-Related.
            4,000                                                                                                                                            100%

            3,500
                                                                         3,458




                                                                                                                                                             90%
                                                         3,337




                                                                                                         3,258




            3,000
                                                                                           3,140




                                                                                                                          3,134



                                                                                                                                           2,936
                                         2,729




            2,500
                        2,629




                                                                                                                                                             80%
            2,000
                                                                                                                           77.7%
                                                         75.9%           74.9%             75.9%         76.1%                                               70%
            1,500                         73.7%                                                                                            73.8%
                        70.1%
                                                                                  1,157




            1,000
                                 1,120




                                                                 1,058




                                                                                                                                                   1,045
                                                                                                                 1,025
                                                                                                   996
                                                 973




                                                                                                                                                             60%
                                                                                                                                  900




              500

                0                                                                                                                                            50%
                         FY 00            FY 01           FY 02           FY 03             FY 04           FY 05          FY 06            FY 07

                                                  Tax-Related                    Nontax-Related                  % Tax-Related

          Source: The Division’s BPR reports for FYs 2000 through 2005 and CIMIS Report INV002
          (Summary by Program Area) for FYs 2006 and 2007.


6
  During FY 2006, the Division revised its formula for determining total inventory. The new formula does not
include subject seizure information or open primary investigations if they had a corresponding subject investigation.
As a result, the inventory numbers reported in Figure 11 for the prior fiscal years changed and might not agree with
those in our prior reports. Total inventory includes primary investigations not yet elevated to subject investigations,
open subject investigations currently being worked in field offices, and subject investigations referred for
prosecution (pipeline).

                                                                                                                                                                    Page 24
                             Statistical Portrayal of the Criminal Investigation Division’s
                             Enforcement Activities for Fiscal Years 2000 Through 2007



Figure 13: Number of Open Subject Investigations Each Fiscal Year by Compliance
Strategy Program and the Percentage That Is Legal Source Tax Crimes.
        2,500                                                                                                                                                                             65%




                                                                               2,170




                                                                                                                           2,121
                                                         2,102
        2,000                                                                                                                                                                             60%




                                                                                                     2,050




                                                                                                                                                      2,006




                                                                                                                                                                    1,990
                    1,839




                                                                                       1,783
                                                                 1,695




                                                                                                                                   1,688
                                          1,681




                                                                                                                                                 1,664
        1,500                                                                                                                                                                             55%




                                                                                                             1,544




                                                                                                                                                                            1,515
                                      1,402




                       49.1%
                                                            47.8%
                              1,111




        1,000                                                                     47.0%                                                                                                   50%
                                        45.4%                                                           49.6%                 49.5%                49.7%               50.0%
                            799




                                                                                               662
                                                  619




         500                                                                                                                                                                              45%
                                                                         598




                                                                                                                     542




                                                                                                                                           474




                                                                                                                                                                                    476
                                                                                                                                                              364
           0                                                                                                                                                                              40%
                       FY 00            FY 01               FY 02                 FY 03                 FY 04                 FY 05                FY 06               FY 07

                                                        Legal                          Illegal                        Narcotics                          % Legal


      Source: The Division’s BPR reports for FYs 2000 through 2005 and CIMIS Report INV002
      (Summary by Program Area) for FYs 2006 and 2007.

Figure 14: Number of Open Subject Investigations at the End of Each Fiscal Year by
Type of Investigation (Grand Jury or Nongrand Jury).
         3,500
                                                                                          2,863
         3,000                                                      2,634                                            2,566                 2,621
                            2,377            2,334                                                                                                            2,378                 2,375
         2,500

         2,000

         1,500                                                      1,761                 1,751
                                                                                                                     1,570                 1,662              1,656                 1,606
         1,000              1,371            1,367
          500

                0
                            FY 00           FY 01                  FY 02                  FY 03                  FY 04                     FY 05              FY 06                 FY 07

                                                                  Grand Jury                                                 Nongrand Jury


       Source: CIMIS Report 11 (Program Summary Analysis) for FYs 2000 through 2007 and the
       Division’s analysis of the CIMIS.




                                                                                                                                                                                                Page 25
                           Statistical Portrayal of the Criminal Investigation Division’s
                           Enforcement Activities for Fiscal Years 2000 Through 2007



Figure 15: Number of Subject Investigations Discontinued or Referred for Prosecution
Each Fiscal Year and the Percentage Referred for Prosecution.
           3,500
           3,000                                                                                                                                        95%




                                                                                               3,037



                                                                                                               2,859




                                                                                                                                                2,837
                                                                                                                               2,720
           2,500




                                                                               2,541
                                                                                                                                                        85%
                           2,434



                                             2,335




                                                                                                                       1,437



                                                                                                                                        1,432
                                                                                       1,350
           2,000

                                                              2,133




                                                                                                       1,245
                                                                       1,225
                   1,065




                                                     1,068
                                     1,005




           1,500                                                                                                                                        75%
           1,000
                    69.6%             69.9%                                            69.2%           69.7%                                            65%
            500                                      66.6%             67.5%                                                            66.5%
                                                                                                                       65.4%
               0                                                                                                                                        55%
                    FY 00             FY 01           FY 02             FY 03          FY 04           FY 05           FY 06            FY 07

                                   Discontinued                   Referred for Prosecution                     % Referred for Prosecution



        Source: The IRS Data Books (Publication 55B) for FYs 2000 through 2004, CIMIS Report 11
        (Program Summary Analysis) for FY 2005, and CIMIS Report INV001 (Criminal Investigation
        Summary Statistics) for FYs 2006 and 2007.

Figure 16: Average Elapsed Days of Subject Investigations Discontinued and Referred for
Prosecution Each Fiscal Year.7
            600
            550                          505.7               492.1
                     483.2
            500                                                                                461.4
                                                                               426.8                           436.8            424.5
            450                                                                                                                                    412.7

            400
                                                             413.2
            350                                                                383.8                           386.6            383.8
                                         362.4                                                 367.8                                               361.2
            300
                     315.7
            250
            200
                     FY 00               FY 01               FY 02             FY 03           FY 04           FY 05            FY 06              FY 07
                                                      Discontinued Cases                                   Referred Cases


           Source: The Division’s analysis of the CIMIS.




7
 The Division revised its calculation formula in FY 2006 to include discontinued investigations that had been closed
due to lack of resources. As a result, the numbers reported in Figure 16 for prior fiscal years might have changed
and might not agree with those in our prior reports.
                                                                                                                                                              Page 26
                          Statistical Portrayal of the Criminal Investigation Division’s
                          Enforcement Activities for Fiscal Years 2000 Through 2007



Figure 17: Number of Subject Investigations Referred for Prosecution Each Fiscal Year
for Tax-Related or Nontax-Related Violations and the Percentage That Is Tax-Related.

        1,800                                                                                                                                                                           100%
        1,600                                                                                                                                                                           90%




                                                                                                         1,573
                                                                                             1,464
        1,400




                                                                                                                   1,454




                                                                                                                                                                 1,430
                                                                                                                              1,405




                                                                                                                                                                          1,407
                          1,389




                                                                                                                                                   1,369
                                                                         1,359




                                                                                                                                         1,351
                                                                                                                                                                                        80%
                                            1,326

        1,200




                                                                                  1,182
                                                                1,104
        1,000                                                                                                                                                                           70%
                  1,045




                                                      1,029
                                    1,009




          800                                                                                                                                                                           60%
          600
                                                                                                                                                                                        50%
          400                                                             53.5%
                                                                                                                   50.9%                 49.7%                   50.4%
                                                      48.2%                                  48.2%                                                                                      40%
          200     42.9%             43.2%
           0                                                                                                                                                                            30%
                  FY 00                 FY 01         FY 02               FY 03              FY 04                  FY 05                FY 06                    FY 07

                                                Tax-Related                           Nontax-Related                               % Tax-Related


       Source: The Division’s BPR reports for FYs 2000 through 2005 and CIMIS Report INV002
       (Summary by Program Area) for FYs 2006 and 2007.

Figure 18: Number of Subject Investigations Referred for Prosecution Each Fiscal Year by
Compliance Strategy Program and the Percentage That Is Legal Source Tax Crimes.
       1,400                                                                                                                                                                             100%
                                                                                                                                                                         1,313
                                                                                                     1,289




                                                                                                                                                                                         90%
                                                                                                                                                 1,265




       1,200
                                                                                                                           1,141




                                                                                                                                                                                         80%
       1,000
                                                                              1,034




                                                                                                                                                                                         70%
                                                                                                                                                                 976
                                           953




                                                                                                                   951
                          926




                                                                                                             879
                                                          864




                                                                                            869




         800
                                        847




                                                                                                                                         834




                                                                                                                                                                                         60%
                                                                        823
                  799




                                                                                                                                   767
                709




                                                                                      684




                                                                                                                                                                                         50%
                                                                 659




         600
                                                                                                                                                           621
                                                    610




                                                                                                                                                                                  548
                                  535




                                                                                                                                                                                         40%
         400
                                                                                                                                                                                         30%
                                                                         32.4%                                      33.3%                                           34.4%
         200     29.1%                               28.6%                                    28.6%                                        30.7%
                                                                                                                                                                                         20%
                                   22.9%
          0                                                                                                                                                                              10%
                 FY 00              FY 01             FY 02               FY 03               FY 04                  FY 05                  FY 06                    FY 07

                            Legal Source                      Illegal Source                      Narcotics-Related                                 % Legal Source


       Source: The IRS Data Books (Publication 55B) for FYs 2000 through 2005 and CIMIS
       Report INV002 (Summary by Program Area) for FYs 2006 and 2007.




                                                                                                                                                                                                Page 27
                  Statistical Portrayal of the Criminal Investigation Division’s
                  Enforcement Activities for Fiscal Years 2000 Through 2007



Figure 19: Number of Subject Investigations Referred for Prosecution Each Fiscal Year by
Principle United States Code Title.
         2,500
                                                          1,922
                                                                    1,779       1,694   1,766
         2,000    1,573                        1,594
                           1,539
                                     1,289
         1,500
                                                                                         976
                   794                772                 1,002      991         940
         1,000                                  876
                            728
           500                                                                           94
                   67        68       72        71         113       89           86
             0
                  FY 00    FY 01     FY 02     FY 03     FY 04      FY 05      FY 06    FY 07

                                   Title 18            Title 26             Title 31


        Source: CIMIS Report 11 (Program Summary Analysis) for FYs 2000 through 2005 and the
        Division’s analysis of the CIMIS for FYs 2006 and 2007.

Figure 20: Number of Subject Investigations Referred for Prosecution Each Fiscal Year
by Type of Investigation (Grand Jury or Nongrand Jury Investigation).
         3000
                                                         2449
                                                                    2293                2248
         2500                                  2051                            2147
                  1990     1955
         2000                        1700

         1500

         1000                                  490        588       566         573     589
                  444       380      433
          500

             0
                 FY 00     FY 01    FY 02     FY 03      FY 04     FY 05       FY 06    FY 07

                                        Grand Jury          Nongrand Jury


        Source: CIMIS Report 11 (Program Summary Analysis) for FYs 2000 through 2005 and the
        Division’s analysis of the CIMIS for FYs 2006 and 2007.




                                                                                                Page 28
                          Statistical Portrayal of the Criminal Investigation Division’s
                          Enforcement Activities for Fiscal Years 2000 Through 2007



Figure 21: Number of Tax-Related and Nontax-Related Subject Investigations in the
Pipeline Each Fiscal Year and the Percentage That Is Tax-Related.
                                                                                                                                                                         70%




                                                                                                                                                   2,102
                                                                                                                            2,095
        2,000




                                                                                                         2,050
                                                                                                                                                                         65%




                                                                                                                                                              1,958
                                                                                      1,887




                                                                                                                                       1,848
                  1,808




                                                                                                                 1,796
                                                                                              1,746
                          1,676




        1,600



                                                                     1,630
                                                                                                                                                                         60%
                                           1,514
                                   1,478




                                                                             1,442
                                                            1,387
                                                    1,346


        1,200                                                                                                                                                            55%

                                                                     53.1%                               53.3%              53.1%
          800                                                                         51.9%                                                                              50%
                  51.9%                                                                                                                             51.8%
                                   49.4%            49.2%
          400                                                                                                                                                            45%


            0                                                                                                                                                            40%
                  FY 00            FY 01            FY 02            FY 03             FY 04             FY 05               FY 06                  FY 07

                                       Tax-Related                           Nontax-Related                              % Tax-Related


        Source: The Division’s BPR reports for FYs 2000 through 2005 and CIMIS Report INV002
        (Summary by Program Area) for FYs 2006 and 2007.

Figure 22: Number of Subject Investigations in the Pipeline Each Fiscal Year by
Compliance Strategy Program and the Percentage That Is Legal Source Tax Crimes.
                                                                                                                                                                         90%
        1,800
                                                                                                                                                           1,770




                                                                                                                                                                         80%
                                                                                                                                    1,683




        1,500
                                                                                                           1,555
                                                                                           1,473




                                                                                                                                                  1,458




                                                                                                                                                                         70%
                                                                                                                          1,371
                                                                                                       1,351
                     1,284




        1,200
                                                                                       1,209
                                                                         1,177




                                                                                                                                                                         60%
                  1,148




                                   1,110




                                                                       1,080
                1,052




                                                    1,028




         900
                                  947




                                                                                     951
                                  935




                                                                                                                   940




                                                                                                                                                                         50%
                                                                                                                                            889
                                                   866

                                                   839




                                                                                                                                                                   832
                                                                    815




         600                                                                                                                                                             40%

         300     36.9%                                                                                                                               35.9%               30%
                                                                     35.2%            33.3%              35.1%               34.8%
                                  31.3%            31.7%
           0                                                                                                                                                             20%
                 FY 00             FY 01            FY 02            FY 03             FY 04              FY 05               FY 06                   FY 07

                                   Legal Souce                      Illegal Source                    Narcotics                         % Legal Source


        Source: The Division’s BPR reports for FYs 2000 through 2005 and CIMIS Report INV002
        (Summary by Program Area) for FYs 2006 and 2007.


                                                                                                                                                                               Page 29
                      Statistical Portrayal of the Criminal Investigation Division’s
                      Enforcement Activities for Fiscal Years 2000 Through 2007



Figure 23: Number of Subjects Convicted and Sentenced for a Crime Each Fiscal Year.
        3,000
                     2,475
        2,500                        2,251              2,201                                                          2,151                                2,155
                                                                                                    2,008                                 2,020
                                                                                1,824
        2,000        2,249           2,238
                                                                                                                       2,095                                2,123
                                                        1,926                                                                             2,019
        1,500                                                                   1,768               1,777

        1,000

          500

               0
                     FY 00           FY 01              FY 02               FY 03                   FY 04             FY 05              FY 06              FY 07

                                                                  Convicted                                       Sentenced

      Source: The IRS Data Books (Publication 55B) for FYs 2000 through 2005 and CIMIS
      Report INV002 (Summary by Program Area) for FYs 2006 and 2007.

Figure 24: Number of Subjects Convicted of a Crime Each Fiscal Year by Compliance
Strategy Program and the Percentage That Is Legal Source Tax Crimes.

       1,200                                                                                                                                                    100%
                                                                                                                                                    947         90%
                                    937




                                                                                                                                  938
                                                                                                                894




       1,000                                                                                                                                                    80%
                                                                                              837




                                                                                                                                                                70%
                     785




                                                      788
                                          766




                                                                          760
                    756




                                                                                                                                              732
                   708




         800                                                                                                                                                    60%
                                                                                                          655
                                                            616




                                                                                                                      602




                                                                                                                                                                50%
                                                                                                    593




                                                                                                                            592
                                                                                585

                                                                                        578
                              548



                                                522




         600                                                                                                                                                    40%
                                                                                                                                        489
                                                                    479




                                                                                                                                                          476




                                                                                                                                                                30%
                   31.5%                                                                                                                       34.0%
         400                                                                             28.8%              30.5%              29.3%                            20%
                               24.3%             27.1%               26.3%
                                                                                                                                                                10%
         200                                                                                                                                                    0%
                   FY 00       FY 01             FY 02               FY 03               FY 04              FY 05              FY 06           FY 07

                           Legal Source                       Illegal Source                         Narcotics                 % Legal Source


      Source: The IRS Data Books (Publication 55B) for FYs 2000 through 2005 and CIMIS
      Report INV002 (Summary by Program Area) for FYs 2006 and 2007.




                                                                                                                                                                       Page 30
                             Statistical Portrayal of the Criminal Investigation Division’s
                             Enforcement Activities for Fiscal Years 2000 Through 2007



Figure 25: Number of Subject Investigations Initiated, Referred for Prosecution,
Indicted, and Convicted Each Fiscal Year. Because actions on a specific investigation might
cross fiscal years, the data shown in investigations initiated might not always represent the same
universe of investigations shown in other actions within the same fiscal year.

        4,500                                                                                                   4,269                                      4,211
        4,200                                                               4,001
                                                      3,906                                  3,917                                     3,907
        3,900
        3,600       3,372
                                     3,284
        3,300                                                                                3,037
                                                                                                                2,859                                      2,837
        3,000                                                                                                                          2,720
                                                                            2,541
        2,700       2,434
                                     2,335
                        2,469                                                                      2,489
        2,400                                         2,133                                                           2,406
                                           2,292                                                                                           2,319              2,323
        2,100                                                                      2,128
                    2,249            2,251
                                                              1,924                                             2,151                                      2,155
        1,800                                                                                2,008                                     2,019
                                                      1,926
                                                                            1,824
        1,500
                    FY 00            FY 01            FY 02                 FY 03            FY 04             FY 05                   FY 06               FY 07

                                      Initiated               Referred for Prosecution                        Indicted                  Convicted

       Source: The IRS Data Books (Publication 55B) for FYs 2000 through 2005 and CIMIS
       Report INV001 (Criminal Investigation Summary Statistics) for FYs 2006 and 2007.

Figure 26: Number of Subjects Sentenced for a Crime Each Fiscal Year for
Tax-Related or Nontax-Related Violations and the Percentage That Is Tax-Related.
         1,600                                                                                                                                                85%
         1,400
                                                                                                                                                              75%
                             1,341



                                           1,332




         1,200
                                                           1,178
                     1,134




                                                                                                                                           1,112
                                                                                                              1,080




         1,000
                                                   1,023




                                                                                                                               1,024




                                                                                                                                                              65%
                                                                                                      1,015




                                                                                                                                                   1,011
                                                                                                                         996
                                                                             933



                                                                                             922
                                     906




           800
                                                                                       855
                                                                      835




           600                                                                                                                                                55%

           400                       40.5%                                                                                                 52.4%
                                                                                                      48.4%              49.3%                                45%
           200                                     46.5%              47.2%            48.1%
                     45.8%
                0                                                                                                                                             35%
                     FY 00           FY 01         FY 02              FY 03            FY 04          FY 05              FY 06                 FY 07

                                            Tax-Related                     Nontax-Related                    % Tax-Related


       Source: Division enforcement statistics from the IRS Internet web site (IRS.gov) for FYs 2000
       through 2005 and CIMIS Report INV002 (Summary by Program Area) for FYs 2006 and 2007.




                                                                                                                                                                      Page 31
                      Statistical Portrayal of the Criminal Investigation Division’s
                      Enforcement Activities for Fiscal Years 2000 Through 2007



Figure 27: Number of Subjects Sentenced for a Crime Each Fiscal Year by Compliance
Strategy Program, and the Percentage That Is Legal Source Tax Crimes.
       1,000                                                                                                                                                    60%




                                                                                                                                               978
        900
                                                                                                                                                                55%




                                                                                                         900
                                                  888




                                                                                                                            861
                                    859
                846




        800
                                   831
               819
               810




                                                                                                                                                                50%




                                                                                      750
        700




                                                                    726
                                                        721




                                                                                                                                         677
                                                                                                                                                                45%
        600




                                                                                                                      624
                                                                                                   615
                                            592




                                                                                                               580
                                                                          568
                             548




                                                                                                                                                                40%




                                                                                                                                  535
        500




                                                                                            520
                                                                                507
                                                              474




                                                                                                                                                     468
        400
                                                                                                                                                                35%
        300
                   33.1%                                                                                                                                        30%
        200                                                                                                            30.9%              31.9%
                                                                                  28.5%             29.4%
                                                                                                                                                                25%
        100                                  26.9%             26.8%
                                24.5%
          0                                                                                                                                                     20%
                   FY 00        FY 01          FY 02           FY 03              FY 04              FY 05              FY 06              FY 07
                      Legal Source                 Illegal Source                     Narcotics-Related                           % Legal Source


       Source: The IRS Data Books (Publication 55B) for FYs 2000 through 2005 and CIMIS
       Report INV002 (Summary by Program Area) for FYs 2006 and 2007.

Figure 28: Number of Subjects Sentenced for a Crime Each Fiscal Year by Principle
United States Code Title.
         1,400

         1,200       1,342          1,324
                                                    1,236                                                      1,212                                 1,219
                                                                                                                                  1,194
         1,000
                                                                          1,018             1,040
          800
                      868
          600                                           769                                                                                            768
                                     666                                                                        704                707
                                                                          594                573
          400
                      194            168
                                                        117               111                91                 107
          200                                                                                                                       43                     53
                           71             80                  79                45                73                 72                  76                     83
               0
                     FY 00          FY 01           FY 02             FY 03                 FY 04              FY 05              FY 06              FY 07

                                    Title 18                        Title 26                             Title 31                        Other

       Source: CIMIS Report 11 (Program Summary Analysis) for FYs 2000 through 2005 and the
       Division’s analysis of the CIMIS for FYs 2006 and 2007.

                                                                                                                                                                      Page 32
                       Statistical Portrayal of the Criminal Investigation Division’s
                       Enforcement Activities for Fiscal Years 2000 Through 2007



Figure 29: Average Number of Months a Subject Is Incarcerated Each Fiscal Year by
Compliance Strategy Program. Incarcerated can include prison time, home confinement,
electronic monitoring, or a combination thereof.
        100
         90




                                                                                                                                                  94
         80




                                                                                                                            82
                                                                   81




                                                                                                                                                                      80
                                           79




                                                                                     77
                           76




         70




                                                                                                        72
         60
         50
         40




                                                                                                                                          37



                                                                                                                                                                 35
         30




                                                                                                                       34
                                                           33



                                                                                32



                                                                                                   32
                                      31
                      27




         20



                                                                                           18




                                                                                                                                                           18
                                                                                                                  17



                                                                                                                                     17
                                                                          16
              15




                                                      15




         10
                                 13




          0
                FY 00             FY 01                FY 02                   FY 03         FY 04                  FY 05              FY 06                   FY 07

                                      Legal Source                              Illegal Source                      Narcotics-Related


      Source: The Division’s analysis of the CIMIS for FYs 2000 through 2005 and CIMIS Report INV002
      (Summary by Program Area) for FYs 2006 and 2007.

Figure 30: Percentage of Investigations That Received Publicity Each Fiscal Year by
Compliance Strategy Program.
       100%
        90%
        80%
        70%
        60%
                                                                                                                                                       87.1%




        50%
                                                                                                                                          84.1%




                                                                                                                                                                   82.9%
                                                                                                                    81.8%



                                                                                                                             81.3%
                                                                       77.7%




                                                                                   78.1%



                                                                                                        77.6%
                                              76.1%




                                                                                  71.0%
                                                           67.9%




        40%
                         64.5%



                                  62.8%




                                                                                                                                                               62.2%
                                                                                                                59.7%
                                           57.0%




                                                                   56.0%




                                                                                           55.8%




                                                                                                                                     55.5%
              54.6%

                      48.1%




        30%
        20%
        10%
         0%
                   FY 01              FY 02                     FY 03                FY 04                   FY 05               FY 06                     FY 07

                                 Legal-Source                                  Illegal-Source                          Narcotics-Related

      Source: The Division’s BPR reports.




                                                                                                                                                                           Page 33
           Statistical Portrayal of the Criminal Investigation Division’s
           Enforcement Activities for Fiscal Years 2000 Through 2007



                                                                        Appendix VI

 Related Treasury Inspector General for Tax
        Administration Audit Reports

1. The Criminal Investigation Function Has Made Progress in Investigating Criminal
   Tax Cases; However, Challenges Remain (Reference Number 2005-10-054, dated
   March 2005).
2. Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
   From Fiscal Year 2000 Through Fiscal Year 2005 (Reference Number 2006-10-074,
   dated May 2006).
3. Actions Have Been Taken to Address Deficiencies in the Questionable Refund
   Program; However, Many Concerns Remain, With Millions of Dollars at Risk
   (Reference Number 2007-10-076, dated May 31, 2007).
4. Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
   From Fiscal Year 2000 Through Fiscal Year 2006 (Reference Number 2007-10-083,
   dated June 6, 2007).
5. While Renowned for Its Forensic Capabilities, the Digital Evidence Program Faces
   Challenges and Needs More Controls (Reference Number 2008-10-106, dated
   April 30, 2008).




                                                                                 Page 35
